                         OFFICE OF INSPECTOR GENERAL
                        CORPORATION FOR NATIONAL AND
                             COMMUNITY SERVICE



                              Independent Audit Report of
                               Office of Inspector General
                   Review of Corporation for National and Community
                   Service Implementation of the Federal Information
                                Security Management Act
                                  For Fiscal Year 2003

                               OIG Audit Report Number 03-25
                                     August 21,2003




                                           Prepared by:

                             Richard S. Carson & Associates, Inc.
                              4720 Montgomery Lane, Suite 800
                                 Bethesda, MD 208 14-3444




This report was issued to Corporation management on September 18, 2003. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions on the
report's findings and recommendations not later than March 18, 2004, and complete its corrective
actions by September 18,2004. Consequently, the report findings do not necessarily represent the final
resolution of the issues presented.
                                                                                 Independent Audit Report
               Corporation for National and Community Service (CNCS) FY 2003 Information Security Program




Richard S. Carson & Associates, Inc. (Carson Associates), on behalf of the Office of Inspector
Getleral (OIG) of the Corporation for National and Community Service (CNCS), completed this
Independent Audit Report. The Lndependent Audit Report provides findings and conclusions
and, when applicable, identifies problem areas and makes recommendations for resolution.

On December 17, 2002, President George W. Bush signed into law the E-Government Act of
2002 (Pub. L. No. 107-347), which includes Title 111, the Federal Information Security
Management Act of 2002 (FISMA). The FISMA permanently reauthorized the framework laid
out in the Government Information Security Reform Act of 2000 (GISRA), which expired in
November 2002. The FISMA outlines the information security management requirements for
agehcies, including the requirement for annual review and independent assessment by agency
inspectors general. In addition, FISMA includes new provisions aimed at further strengthening
the security of the Federal government's information and information systems, such as the
devielopment of minimum standards for agency systems. The annual assessments provide
agehcies with the information needed to determine the effectiveness of overall security programs
and to develop strategies and best practices for improving information security.

The independent audit comprises four elements: evaluation of CNCS's information security
program, evaluation of CNCS progress towards correcting weaknesses addressed within the 2002
Plan of Action and Milestones (POA&Ms), review of Corporation self-assessments and
verification and testing of information security controls for four representative information
systems. The results of the independent audit address the problems identified during the
evaluation. The major findings from the report are summarized in the Results in Brief.



The objectives of the independent audit of CNCS's information security program were to:

        Test the effectiveness of information security policies, procedures and practices of a
        representative subset of the agency's information systems;
        Assess compliance with FISMA and related information security policies, procedures,
        standards and guidelines; and
        Conduct follow-up assessment of agency progress in correcting weaknesses identified in
        prior GISRAIFISMA evaluations, including those weaknesses listed in the Fiscal Year
        (FY) 2002 POA&M.



CNCS has taken a number of steps during the past year to enhance its security program and
address issues identified in the 2002 GISRA report. These enhancements are as follows:

        Hardware and software have been acquired and installed to provide Continuity of
        Operations (COOP) for the e-Grants system.

        The COOP has been successfully tested for e-Grants, with full capability anticipated by
        the end of this fiscal year.
                                                                                Independent Audit Report
              Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


       Certification and Accreditations (C&As) were completed for all major applications (MA)
       during this reporting period.

       Improvements have been made to the test planning and execution process. Efforts are
       ongoing to integrate these improvements into the formal Systems Development Lifecycle
       (SDLC) methodology.

       CNCS maintains a very effective security awareness program; all employees and
       contractors (requiring system access) undergo annual security awareness training.

       Configuration Management (CM) policies include extensive work in the tracking of
       hardware inventory and software licensing, as well as the use of automation tools to track
       system level configurations for desktop deployment and configuration control.

Notwithstanding the improvements stated above, some areas showed little progress toward
remediation andlor did not adhere to Office of Management and Budget (OMB) A 4 3 0 guidance.
These areas were identified as problems.

       The lack of system-level rules of behavior for the Electronic-System for Program
       Agreements and National Service Participants (E-SPAN) and Electronic-Grants (e-
       Grants) were identified as a weakness in last year's GISRA assessment, but have not
       been documented or addressed to date. While there are a variety of policies and
       procedures for system users and many cover "rules" that affect applicable systems,
       Program Officials have not defined system-specific rules as required by OMB A-130.

       The 2002 GISRA report stated that a summary of major system security plans was not
       included in the Corporation's Information Management (IM) Strategic Plan. This item is
       identified in the agency-wide POA&M but, to date, has not been included in the IM
       Strategic Plan. However, during an August 2003 interview with the Deputy Chief
       Information Officer (Deputy CIO), it was determined that this weakness is now being
       addressed and should be resolved upon publication of the revised plan this year.

       The Corporation has a stated policy to perform complete C&A processes for all major
       systems each year (versus every three years or whenever a major system change occurs),
       rather than performing annual tests and evaluations as defined in OMB A-130. However,
       there is no documented policy within CNCS stating annual System Test and Evaluation
       (ST&E) and risk-assessment processes will be accomplished as a part of C&A.

       The Corporation's corrective action process needs to be improved to ensure that all
       Information Technology (IT) security weaknesses are identified on system-level
       POA&Ms and that the Program Officials and the OIG track and support resolution of
       these actions in a pro-active, collaborative way. The Corporation's Deputy CIO and OIG
       maintain a variety of tracking systems and maintain their own processes. However, the
       POA&M process, as described by OMB A-130 and recent FISMA reporting guidance
       issued August 6, 2003, is not the Corporation's authoritative management tool for
       tracking IT security weaknesses.

       The Corporation identifies their major systems in a variety of methods, such as Exhibit
       300s, Security Plans and the IM Strategic Plan. However, there is no single source for
       maintaining the Corporation's inventory of major systems and their inter-connections
                                                                                Independent Audit Report
              Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


       with other systems. The resulting condition is a lack of reconciliation between
       documents and reporting methods concerning the official list of major systems within
       CNCS.



Based on these findings, the audit team has made a number of recommendations to strengthen
CNCS's security program. The list of recommendations made to CNCS is consolidated at page
11.



At an exit conference held on August 21, 2003, CNCS officials generally agreed with the
findings. The comments provided by CNCS and OIG officials on August 26, 2003, have been
incorporated in the report where appropriate.

Upon review of the draft report, CNCS officials provided a formal response to the report and
recommendations contained therein. This response is provided at Appendix C.




                                                                                                      iii
                                                                                   Independent Audit Report
                 Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


ABBREVIATIONS AND ACRONYMS


AIS        Automated Information Systems

BCCP       Business ContinuityIContingency Plan

C&A        Certification and Accreditation
CASE       Computer-Aided Software Engineering
CCB        Configuration Control Board
CFO        Chief Financial Officer
CIO        Chief Information Officer
CM         Configuration Management
CNCS       Corporation for National and Community Service
COOP       Continuity of Operations Plan
COTS       Commercial Off-the-shelf Software

DMZ        Demilitarized Zone
DNS        Domain Name Service
DO1        Department of Interior
DRS        Disaster Recovery Site

E-GRANTS   Electronic-Grants
E-SPAN     Electronic-System for Program Agreements and National Service Participants

FPS        Federal Protection Service
FISCAM     Federal Information System Controls Audit Manual
FedCIRC    Federal Computer Incident Response Center
FISMA      Federal Information Security Management Act
FY         Fiscal Year

GAGAS      Generally Accepted Government Auditing Standards
GAO        U.S. General Accounting Office
GISRA      Government Information Security Reform Act
GSS        General Support Systems

IG         Inspector General
ISACA      Information Systems Audit & Control Association
ISSO       Information Systems Security Officer
IM         Information Management
IP         Internet Protocol
IRM        Information Resource Management
IT         Information Technology

LAN         Local Area Network

MA          Major Application
MOA         Memorandum of Agreement
MOU         Memorandum of Understanding
MPD         Washington Metropolitan Police Department
                                                                                    Independent Audit Report
--     -
                  Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


NBC        National Business Center
NIST       National Institute of Standards and Technology

OIG        Office of the Inspector General
OIT        Office of Information Technology
OMB        Office of Management and Budget
0s         Operating System
OWA        Outlook Web Access

POA&M      Plan of Action and Milestones

RPC        Remote Procedure Call

SAINTTM    System Administrator's Integrated Network Tool
SAS 70     Statement on Auditing Standards (SAS) No. 70
SDLC       Systems Development Lifecycle (SDLC)
SR         Security Incident Report
SLA        Service Level Agreement
SNMP       Simple Network Management Protocol
SP         Special Publication
ST&E       System Test and Evaluation

WBRS       Web-based Reporting System
                                                                                                    lndependent Audit Report
                                  Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


TABLE OF CONTENTS




Purpose ...................................................................................................................................1

Independent Audit .................................................................................................................... 1
        Agency Risk Assessments ..................................................................................................................                2
              Conclusions and Findings .......................................................................................................................2
              Recommendations ................................................................................................................................... 2
        Security Policies and Procedures ........................................................................................................                 2
              Conclusions and Findings .......................................................................................................................2
              Recommendations ................................................................................................................................... 3
        System Security Plans ....................................................................................................................... 3
              Conclusions and Findings .....................................................................................................................3
              Recommendations ...................................................................................................................................4
        Security Awareness and Training .......................................................................................................                   4
              Conclusions and Findings .......................................................................................................................4
              Recommendations ................................................................................................................................... 4
        Annual Testing and Evaluation ...........................................................................................................                 4
              Conclusions and Findings ....................................................................................................................... 4
              Recommendations ................................................................................................................................... 6
        Corrective Action Process ...................................................................................................................             6
              Conclusions and Findings ....................................................................................................................... 6
              Recommendations ................................................................................................................................... 8
        Security Incident Reporting ................................................................................................................              8
              Conclusions and Findings .......................................................................................................................8
              Recommendations................................................................................................................................... 8
        Continuity of Operations ....................................................................................................................             9
              Conclusions and Findings ....................................................................................................................... 9
              Recommendations ................................................................................................................................... 9
        Configuration Management ................................................................................................................                 9
              Conclusions and Findings .......................................................................................................................9
              Recommendations ................................................................................................................................. 10
Consolidated List of Recommendations ...........................................................................11

Response to Agency Comments........................................................................................... 12


Appendices

        Appendix A:                 Objective. Scope and Methodology .....................................................................
                                                                                                                                       13
        Appendix B:                 Executive Summary for Office of Management and Budget (OMB) ..................15
        Appendix C:                 Agency Response to the OIG FISMA Report ...................................................        16
                                                                                         Independent Audit Report
                       Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


Background

Richard S. Carson & Associates, Inc. (Carson Associates), on behalf of the Office of Inspector General
(OIG) of the Corporation for National and Community Service (CNCS), completed this Independent
Audit Report. The Independent Audit Report provides findings and conclusions and, when applicable,
identifies problem areas and makes recommendations for resolution.

On December 17, 2002, President George W. Bush signed into law the E-Government Act of 2002 (Pub.
L. No. 107-347), which includes Title 111, the Federal Information Security Management Act of 2002
(FISMA). The FISMA permanently reauthorized the framework laid out in the Government Information
Security Reform Act of 2000 (GISRA), which expired in November 2002. The FISMA outlines the
information security management requirements for agencies, including the requirement for annual review
and independent assessment by agency inspectors general. In addition, FISMA includes new provisions
aimed at further strengthening the security of the Federal government's information and information
systems, such as the development of minimum standards for agency systems. The annual assessments
provide agencies with the information needed to determine the effectiveness of overall security programs
and to develop strategies and best practices for improving information security.

The independent audit comprises four elements: evaluation of CNCS's information security program,
evaluation of CNCS progress towards correcting weaknesses addressed within the 2002 Plan of Action
and Milestones (POA&Ms), review of Corporation self-assessments, and verification and testing of
information security controls for four representative information systems. The results of the independent
audit are presented in a separate Independent Audit Report that presents a number of recommendations to
address the problems identified during the evaluation. The major findings from the report are
summarized in the Results in Brief.

Purpose

The objectives of the independent audit of CNCS's information security program were to:

        Test the effectiveness of information security policies, procedures and practices of a
        representative subset of the agency's information systems;
        Assess compliance with FISMA and related information security policies, procedures, standards
        and guidelines; and
        Conduct follow-up assessment of agency progress in correcting weaknesses identified in prior
        GISRAIFISMA evaluations, including those weaknesses listed in the fiscal year 2002 POA&M.

This audit report is a stand-alone document and also serves as the authoritative source for the Executive
Summary to the Office of Management and Budget.

The audit was conducted in accordance with Generally Accepted Government Auditing Standards. All
applicable standards were followed.

lndependent Audit

The information contained in this section provides the findings from research, analysis and assessment of
the Corporation's information security program. Compliance with security standards prescribed by
OMB, the National Institute of Standards and Technology (NIST) and related authoritative policies,
procedures, standards and guidelines (criteria), where applicable, will be cited when describing a specific
finding (condition). When appropriate, root cause and affect will be included in the discussion. Lastly,
                                                                                         Independent Audit Report
                       Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


recommendations will also be made for any weaknesses andlor deficiencies noted.                           These
recommendations are intended to assist CNCS in determining the corrective action needed.

Agency Rlisk Assessments

Conclusions and Findings

The Corporation's major system security plans have all undergone risk assessments, as part of
their Certiification and Accreditation (C&A) processes, within the last year. OMB A-130 requires
that Federal agencies use a risk assessment process when developing security plans. Within CNCS, OMB
A- 130 was followed. NIST Security Self-Assessment Guide for Information Technology Systems, Special
Publication (SP) 800-26, was used to develop security plans for their major systems and to conduct the
risk assessments. Any risks identified were evaluated by the Information System Security Office (ISSO)
and were addressed in the cover letter to the Deputy CIO, as the certifying authority. As a result of these
assessments, Program Officials are able to determine the security of their systems and address any
weaknesses or vulnerabilities before they can be exploited.

Recommendations

        Based on findings associated with agency risk assessments, we recommend that CNCS continue
        to conduct annual risk assessments in accordance with their well-established organizational
        practices.

Security Policies and Procedures

Conclusions and Findings

The Corporation has a very comprehensive library of policies and procedures available to their
staff through their intranet. For example, policies include guidelines for obtaining accounts to the
network, obtaining security awareness training, using Internet and e-mail systems, protecting and
handling sensitive information and responding to incidents. Subject areas are comprehensive, covering
network system and agency-wide security topics. In addition to security policies, the library includes the
Business ContingencyIContinuity of Operations Plan (BCCP) for the network and a Continuity of
Operations Plan (COOP) for each of the major systems. These systems define the roles and
responsibilities for applicable staff members and contractors, in order to execute the plans in the event of
system failure

The current SDLC does not include methodologies to support findings from the latest risk
assessments concerning test procedures, test plans and documented test results. Not having a
defined test methodology has resulted in many test items, risk-assessment findings and control test results
not being tracked for analysis and resolution. OMB A-130 requires that agency heads take an active role
in ensuring that security practices are followed throughout the systems' lifecycles. Within CNCS, the
Deputy CIO has been an active participant in the development of the Systems Development Lifecycle
(SDLC) used by the agency for application (system) development. To improve the test phase of the
lifecycle, the Deputy CIO and system owners have recently collaborated to develop a process for test plan
development and execution, including roles and responsibilities for the technical staff and end users. This
material, while not fully integrated into the SDLC document, shows good progress toward achieving full
integration of testing into the SDLC methodology.

The current SDLC does not contain a methodology for evaluating and integrating Commercial Off-
the-Self (COTS) products into CNCS's automated systems. OMB criteria calls for ensuring security
                                                                                         lnde~endentAudit R e ~ o r t
                       Corporation for National and Community Service (CNCS) FY 2003 lnformaiion Security program


practices aEe followed throughout the lifecycle. In today's computing environment, many agency systems
contain pret-packaged products that can offer advanced capabilities without extensive customization by
the techniclal staff. However, while the capabilities are not "developed" by the agency, the product is
being integrated into the collective architecture, thus having a major impact upon the security
configurations and practices in place. Therefore, COTS products should be addressed in the agency's
SDLC documentation.

Recommendations

Based on findings associated with security policies and procedures, we recommend that CNCS take the
following actions to resolve SDLC weaknesses.

        Include test provisions in the SDLC.

        Include COTS evaluation provisions in the SDLC.

System Security Plans

Conclusions and Findings

At the system level, the Electronic-System for Program Agreements and National Service
Participants (E-SPAN) and Electronic-Grants(e-Grants) Application Security Plans do not contain
system-specific rules of behavior for all individuals with access to the systems. OMB A-130
[Appendix 111, A(3)(b)(2)(a)] requires that agencies "establish a set of rules concerning the use of and
behavior within the application." OMB A-130 also states that:

        "Such rules shall clearly delineate responsibilities and expected behavior of all
        individuals with access to the application. In addition, the rules shall be clear about the
        consequences of behavior not consistent with the rules."

The effects of not having these rules can be numerous. In the case of E-SPAN and e-Grants, end users
may not be aware of application-specific data sensitivities or be aware of key personnel that are
responsible for release of grant data through the system. In addition, if there are any responsibilities that
are shared between functional area experts and the technical staff, there may be confusion or
misunderstanding concerning the lines of responsibility.

A summary of major application security plans is not included in the Corporation's Information
Management (IM) Strategic Plan. This is a repeat finding, also identified during the 2002 GISRA
report and currently documented and tracked on the agency-wide POA&M. OMB A-130 guidance
[Appendix 111, (A)(3)(a)(2)] requires that "a summary of the security plans shall be incorporated into the
strategic Information Resource Management (IRM) plan required by the Paperwork Reduction Act (44
U.S.C. Chapter 3 9 . " In addition to non-compliance with the referenced policies, the effect on the
agency's security program is two-fold. First, senior agency officials will not have the strategic security
profile available to them, thus impacting security awareness concerning major applications at agency head
level. Second, agency officials responsible for developing the strategic plan will not have system security
information available to relate security issues to long-range budget and IT capital planning.
                                                                                         Independent Audit Report
                       Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


Recommendations

Based on findings associated with security policies and procedures, we recommend that CNCS make
policy and procedure enhancements as follow:

        Develop E-SPAN and e-Grants rules of behavior.

        Include svstem security plan summaries into the IM Strategic Plan.

Security Awareness and Training

Conclusions and Findings

CNCS maintains a very effective security awareness program, ensuring all employees and
contractors (with system access) undergo annual security awareness training. OMB A-130 requires
that "agencies provide security awareness training for all employees (ref: 2003 FISMA Guidance, p34)."
Within CNCS, this program is very comprehensive and well maintained in accordance with OMB
guidelines. The Deputy CIO and the ISSO take an active role in maintaining the security awareness of
both the end users and technical staff that supports the Corporation. The ISSO maintains a database of all
user security awareness training activity and proactively reminds users whenever their annual training is
required. Corporate policies contain provisions for training prior to obtaining accounts and gaining
access to the network, applications and sensitive information, as well as provisions for when accounts will
be inactivated and retired. Training material is conveniently available to the users in multiple ways, such
as on-line training or classroom instruction. Additionally, documentation is available to users on-line on
how to report security incidents and what their responsibilities are in those instances. Users are also
provided with information from the ISSO and the Office of Information Technology (OIT) Help Desk
regarding current security concerns, such as Federal Computer Incident Response Center (FedCIRC)
virus alerts.

Recommendations

        Based on findings associated with the agency's security awareness training program, we
        recommend that CNCS continue to capitalize on current security awareness training practices and
        procedures.

Annual Testing and Evaluation

Conclusions and Findings

All major systems reviewed during the assessment had recent C&A packages that contained risk
assessments and security controls testing results. FISMA and OMB guidance requires that all agency
systems be reviewed at least annually, and use the NIST SP 800-26 or an agency-developed methodology
that includes all NIST SP 800-26 requirements. As required, CNCS conducts testing and evaluation in
accordance with the provisions of the NIST self-assessment guide (SP 800-26) and uses the results as a
basis for security plan development.

CNCS performs annual C&As, in lieu of annual testing and evaluation; however, there is no
documented policy to ensure compliance with the annual requirement. OMB policy requires that
systems undergo complete C&A and security control testing every three years, or whenever a major
system change occurs. OMB requires that all major systems undergo annual testing and evaluation to
ensure that system environments remain secure. The Corporation supports both requirements by
                                                                                         Independent Audit Report
                       Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


performing complete C&As for all major systems. No other risk assessments are performed by agency
staff or cantractors. The annual independent FISMA audit is the only exception. The practice of
performing annual C&As to satisfy the requirement for annual risk assessment, testing and evaluation is
not a documented Corporation policy. While this practice ensures CNCS compliance with OMB and
NIST policy, the use of this undocumented procedure could result in failure to perform annual testing if
system owners are not aware of this approach.

The CNCS Corporation performs scans of their network to identify and mitigate possible
vulnerabilities.

Internal Scanning conducted by CNCS
The OIT staff utilizes specialized scanning software to perform detailed vulnerability scans of their
architecture to identify such issues such as patch update requirements, open ports and services that are
running on various servers, routers and workstations. These scans are executed routinely, but are also run
after a change has been made to the architecture to ensure the configuration is secure and meets current
CM requirements maintained for the network. OIT's methodology includes performing system changes
and updates on a test platform and re-running applicable scans to validate changes, prior to deployment in
the production environment.

Internal Scanning conducted by outside consultant
The OIG's independent FISMA evaluation included internal scanning. On August 6, 2003, an internal
vulnerability assessment was conducted using the Security Administrator's Integrated Network Tool
(SAINTTM).SAINTTM       analyzes the network signature of a given host, assesses the signature for probable
vulnerabilities, ranks the vulnerabilities in terms of severity, reports the vulnerabilities and suggests a
remedial course of action. Carson Associates worked with OIT to identify what hosts to scan. A full
SAINTTMscan was conducted by attaching a laptop with the SAINTTMsoftware installed on it to the
CNCS network. Scan targets included central file servers and printers, a sample of service centers and
state offices and the Corporation's Demilitarized Zone (DMZ) servers. Upon completion of the scans, the
laptop was removed from the CNCS network and taken to the Carson Associates office in Bethesda, MD.
There the data was analyzed and the results compiled for delivery to CNCS. All data and products were
then delivered to CNCS and the data removed from the Carson Associates laptop. The detailed results
from these scans were provided to CNCS with the results grouped in two views:

        Service Category (Critical Problems, Areas of Concern, Potential Problems, and
        Services that are not exploitable)

        Class (Web, Mail, File Transfer, Logidshell, Print Services, Remote Procedure Call (RPC),
        Domain Name Service (DNS), Databases, Networking/Simple Network Mail Protocol (SNMP),
        Windows Operating System (OS), Passwords, and Other)

External scanning conducted by outside consultant
Carson Associates conducted external scans during the FISMA audit process. On August 20, 2003, an
external assessment was performed using a variety of tools, including SAINTTM,nslookup, whois, xprobe,
nmap and nmblookup. In addition, several attempts were made to access specific ports and services
identified by the SAINTTMscan. The external assessment was conducted "blind (i.e., information from
the previous internal assessment and other information previously learned about the CNCS network was
not used during the external assessment). The external assessment was conducted using several steps:
                                                                                         Independent Audit Report
                       Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


       Identify CNCS IP Space - The first step was to identify the Internet Protocol (IP) space "owned
       by CNCS. A combination of nslookup and the ARIN whois service were used to identify the
       target IP space.

       SAINTTMScan - The next step was to perform a SAINTTMscan on the identified IP space.
       Attachment C contains the details from the SAINTTM
                                                        scan.

       Nmap and xprobe Scans - After the SAINTTMscan, additional probes were performed using nmap
       and xprobe. The xprobe scans were useful in identifying possible operating system types for the
       seven hosts found by the SAINTTM scan.

       Outlook Web Access (OWA) Tests - Information gathered from the CNCS web site and the
       previous tests was used to gather possible OWA account names. Several attempts were made to
       try and access CNCS mailboxes.

       Port and Service Tests - Information gathered by the different scans was used to try and connect
       to various ports and use various services.

Upon completion of the scans, the data was analyzed and the results compiled for delivery to CNCS. The
results of the analysis were provided to CNCS for their analysis and appropriate action.

Recommendations

Based on findings associated with annual testing and evaluation, we recommend that CNCS take action as
follows:

        Document the procedure for conducting annual tests and evaluation in a written policv.

        Review the results of the internal and external penetration tests conducted by Carson Associates
        during this evaluation, and resolve/rnitigate vulnerabilities, as appropriate, to meet the security
        needs of the Corporation and its external customers.

Corrective Action Process

Conclusions and Findings

CNCS maintains a single agency-wide POA&M and reports the status of actions on this POA&M to
OMB on a quarterly basis. The Deputy CIO maintains the agency-wide POA&M and tracks summary-
level IT security weaknesses and security issues having significant financial resource implications. For
example, findings concerning deficiencies in system-level documentation are aggregated and tracked as a
single POA&M item, rather than stating distinct security weaknesses. The aggregate POA&M complies
with OMB policy for agency head tracking and is used by the OIG during annual financial audits to
evaluate items that may affect compliance with financial guidelines. However, greater granularity below
summary level is needed for tracking IT security weaknesses identified through the various audit,
assessment and testing processes. Implementation of a comprehensive tracking system, having both
summary and system-level detail, would ensure multi-dimensional tracking by system owners, agency
leadership and oversight bodies such as the OIG and auditors. Tracking should ensure a total integrated
picture of IT security weaknesses, including both agency-wide and system-wide POA&Ms.
                                                                                         Independent Audit Report
                       Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


Agency POA&Ms are not used as the authoritative management tool for tracking IT security
weaknesses throughout the Corporation. The 2003 FISMA Guidance (page 21) states that agency and
system-level POA&Ms "should be the authoritative agency-wide management tool" for tracking
corrective action items associated with security deficiencies. The Deputy CIO does maintain a tracking
database for action items related to OIT activities. These action items are also tracked in various
applications, such as the OIT Help Desk database, network action items, application "fix" lists and
deployment lists. However, many of the IT security weaknesses and recommendations shown in risk
assessments, GISRAIFISMA assessments and financial audits are not maintained in these tracking
systems. Additionally, these tracking mechanisms are not used to track or produce system-level
POA&Ms. The effect is that CNCS does maintain tracking capabilities to manage various types of action
items (including many that are considered IT security weaknesses), but does not use POA&Ms as the
authoritative tool as required by OMB. As a result, IT security weaknesses are not being tracked in a
coordinated way by the various agency process owners and stakeholders. Utilizing the POA&M process
as the predominant overarching tracking method would ensure FISMA compliance. It would also
facilitate CNCS staff involvement in IT security weakness mitigation/resolution activities.

Most IT security weaknesses and recommendations from the 2002 GISRA assessment, recent risk
assessments and control tests are not tracked in the agency-wide POA&M or in system-level
POA&Ms. For example, the e-Grants C&A cover letter from the ISSO to the certifying authority states
that "the overall risk exposure will remain low upon resolution and implementation of the
recommendations listed in the document." However, prior audit findings are not listed in a POA&M or
tracked in a manner that could be verified for status or resolution. NIST SP 800-26 states that the security
certification package should contain the security plan, the security test and evaluation report and a
POA&M list. FISMA guidance (August 6, 2003) also states that "an agency should develop a separate
POA&M for every program and system for which weaknesses were identified in the FISMA reports, as
well as those discovered during other reviews including General Accounting Office (GAO) audits,
financial system audits, and critical infrastructure vulnerability assessments." Findings and
recommendations are not tracked, managed, addressed or reported as required by FISMA. The possible
impact is that IT security weaknesses and vulnerabilities may be overlooked or inadequately addressed
and mitigated, resulting in unacceptable risk to the agency and related systems.

CNCS functional leaders and the OIG are not involved in the POA&M resolution process.
Currently, the Deputy CIO acts on behalf of the agency head, CIO and functional area leaders to support
the tracking of IT security weaknesses. The Deputy CIO also acts on behalf of the agency in the role of
system owner for the Network, E-SPAN and e-Grants systems. Functional leaders are only involved in
system-related activities to coordinate with the Deputy CIO and OIT staff to resolve issues that relate to
the functionality and operations of their systems. The OIG is involved with the Corporation's IT
activities during the annual financial audit process, independent FISMA assessment process and during
major system desigdre-design processes. As a result of the GISRA results from previous years, the
Assistant Inspector General for Audit stated that "the OIG has taken steps to determine areas that should
be included in the OIG's audit plans. For example, the OIG has completed additional network assessment
testing and reported the results to Corporation Management in audit report 02-23". The OIG also
maintains a tracking system to track OIG audit items. Recent FISMA guidance (August 6, 2003) has
expanded the required role of the OIG and now requires "IGs to assess against specific criteria, whether
the agency has developed, implemented, and manages an agency-wide POA&M process." Specifically,
OMB Guidance (question a.4), asks whether "agency IGs are an integral part of the POA&M process and
have access to agency POA&Ms." Notwithstanding OIG involvement during financial audits, this new
guidance now requires OIGs to become more of an interactive participant in the POA&M process and to
assess the effectiveness of the POA&M process in managing IT security weaknesses. In the current
environment, the OIG and corporate system owners do not interact collaboratively within the framework
of the agency security program.
                                                                                         Independent Audit Report
                       Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


Thus, there is a need for functional area leaders and the OIG to take a more proactive role in tracking and
reporting PIOA&M items. Currently the Network, E-SPAN and eGrants are at the core of agency-owned
systems and are under the central responsibility of the Deputy CIO. While the agency is of modest size
(approximately 600 people) and the relatively small number of major systems and general support
systems (less than six) may not require the separation of IT management duties, functional area leaders
and the OIG still share responsibility for ensuring the protection of the systems and data upon which the
agency depends to accomplish its mission.

Recommendations

Based on findings associated with the corrective action process, recommend that CNCS expand upon the
current single agency-wide POA&M to incorporate additional IT security improvements as follows:

        Track IT security weaknesses and recommendations in single, integrated process consisting of
        both agencv-wide and system-level POA&Ms.

        Implement POA&Ms as the authoritative management tool for tracking IT security weaknesses.

        Increase CNCS functional leader and OIG involvement in the POA&M process.

Security Incident Reporting

Conclusions and Findings

CNCS has developed and maintains an effective security incident reporting process that follows
FedCIRC policies. OMB A-130 requires that all agencies develop an incident response capability
for their major applications and general support systems (2003 FISMA, p35). CNCS maintains a
detailed policy available to all users through the CNCS intranet, providing thorough guidance concerning
the Serious Incident Report (SIR) procedures and responsibilities.

The Deputy CIO and ISSO take an active role in the SIR process, particularly for IT-related incident
reporting. The Deputy CIO is very knowledgeable regarding what types of incidents are considered
"reportable" and the procedures to be used to invoke the reporting process. In the past year there have
been no incidents at CNCS headquarters, its Service Centers or State Offices that have required an SIR
report to the FedCIRC.

Physical security incident reporting is the responsibility of Administrative Services, and are notified
immediately if a physical security incident occurs. If the incident takes place within the headquarters
facility, Administrative Services contacts the Federal Protective Services (FPS), who, in turn, responds to
the incident. The Washington Metropolitan Police Department (MPD) is contacted for response to
incidents outside the facility.

Recommendations

         Baqed on findings associated with the security incident report (SIR) process, we recommend that
         CNPS continue to manage serious incident reporting as outlined in established agency policies
         and procedures.
                                                                                         Independent Audit Report
                       Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


Continuity of Operations

Conclusions and Findings

All of the major applications reviewed during this assessment have undergone testing of their
Continuity of Operations Plans (COOP) as part of the C&A processes. The NIST Contingency
Planning Guide for Information Technology Systems (SP 800-34), states that contingency plans should
contain detailed records of system configurations in order to enhance system recovery capabilities. The
2002 GISRA Assessment Report stated that the e-Grants system COOP had been developed, but could
not be tested due to the lack of hardware and software in the Disaster Recovery Site (DRS) to recover the
DMZ. These resources were acquired and installed at the DRS, and the e-Grants COOP was tested in
September 2002. All testing was successfully completed by October 2002. It was noted by the Deputy
CIO that a portion of the e-Grants system had not been available for testing by the grantee, but will be
available and tested in September 2003. The CNCS network has a current and tested BCCP that includes
both COOP details to recover the technical environment and applications and contingencies to counter
various failure scenarios. For example, a contingency exists for a Service Center losing connection with
the CNCS network. In that instance, the center's capability is transitioned to an alternate site until the
connection can be restored. In another example, if the dedicated connection to the Momentum system is
interrupted, an alternate "fail-over" site exists to ensure continued operation.

CNCS maintains a variety of mechanisms to ensure documented agreements between CNCS and
outside agencies and contractors that maintain or own systems critical to CNCS operations. NIST
SP 800-34 states that "...memorandums of understanding (MOU), memorandum of agreement (MOA), or
a Service Level Agreement (SLA) for an alternate site should be developed specific to the organization's
needs and the partner organization's capabilities" (SP800-34, p22). MOUs represent partnerships
between organizations to help them achieve mutual goals. CNCS has recently reviewed the Statement on
Auditing Standards No. 70 (SAS 70) reports on the Department of Interior's National Business Center
(NBC) in Reston, VA. Additionally, a technical training and assistance agreement exists between the
CNCS Grants office and the Aguirre Hosting Corporation for the Web-based Reporting System (WBRS).
The CNCS also maintains active contracts and MOUs with contractor-provided facilities for both the
public web site and the DRS. Having these documented and agreed-upon policies, requirements, roles and
responsibilities between the Corporation and critical "partners" in place further enhances the security and
sustainment of critical operations and resources.

Recommendations

        Based on findings associated with CNCS management of continuity of operations for IT systems,
        we recommend that CNCS continue to follow established procedures consistent with periodic
        review and update as dictated by the dynamic nature of the threat environment.

Configuration Management

Conclusions and Findings

Configuration Management (CM) of CNCS systems and assets is performed in a very effective
manner. All hardware is maintained by an inventory tracking system managed by the OIT. This
inventory is reviewed at least once annually as required by FISM, Section 305. Software licensing and
installations are managed by the OIT Client Support Group, with oversight by the Deputy CIO.
Automation tools are used by the OIT to maintain system-level configuration and desktop deployments.
Additionally, application configurations are controlled through Configuration Control Boards (CCBs),
with budget decisions approved by the Chief Financial Officer (CFO). The OIT also utilizes Computer-
                                                                                          Independent Audit Report
                        Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


Aided Software Engineering (CASE) tools from Oracle to design, develop and maintain security settings
and database roles/permissions within application databases.

CNCS ha$ no single source document for maintaining the Corporation's inventory of major
systems and their inter-connections with other systems. FISMA guidance requires "the head of each
agency to develop and maintain an inventory of major information systems (including national security
systems) operated by or under the control of the agency." The Corporation identifies their major systems
in a variety of methods, such as Exhibit 300s, Security Plans and the IM Strategic Plan. Although the
CNCS references their systems in these various documents, the current condition has resulted in different
lists reflecting inconsistencies in what systems exist and which ones are major systems. Establishing a
single auth~ritativesource listing of the Corporation's systems could rectify this problem. The official
listing should also indicate the criteria used for categorizing the systems. The resulting list should then be
used as the official inventory of CNCS major systems, along with their interconnections with other
systems.

Recommendations

Based on findings associated with configuration management, we recommend that CNCS review the
following recommendation and take actions as necessary to enhance the agency's security program.

        Continue to conform to the proven configuration management procedures that are currently in
        place.

        Develop a single-source inventory of major systems.
                                                                                         Independent Audit Report
                       Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


Consolidated List of Recommendations
A recapitulation of all corrective action recommendations contained in this report follows.

        Include test provisions in the SDLC.

        Include COTS evaluation provisions in the SDLC.

        Develop E-SPAN and e-Grants rules of behavior.

        Include system security plan summaries into the IM Strategic Plan.

        Document the procedure for conducting annual tests and evaluation in a written policy.

        Review the results of the internal and external penetration tests conducted bv Carson Associates
        during this evaluation, and resolvelmitigate vulnerabilities, as appropriate, to meet the security
        needs of the Corporation and its external customers.

        Track IT security weaknesses and recommendations in single integrated process consisting of
        both agency-wide and system-level POA&Ms.

        Implement POA&Ms as the authoritative management tool for tracking IT security weaknesses.

        Increase CNCS functional leader and OIG involvement in the POA&M process.

        Develop a single-source inventory of major systems.
                                                                                        Independent Audit Report
                      Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


Responsle to Agency Comments

At an exit conference held on August 21, 2003, CNCS officials generally agreed with the findings. The
comments provided by the CNCS and OIG officials on August 26, 2003, have been incorporated in the
report w h e e appropriate.

Upon review of the draft report, CNCS officials provided a formal response to the report and
recommendations contained therein. This response is provided at Appendix C.
                                                                                                      Appendix A
                       Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


OBJECTIVE, SCOPE AND METHODOLOGY

The overall objective of this independent audit was to assist the OIG in meeting its FISMA obligation for
independent assessment of CNCS's information security program in accordance with OMB fiscal year
2003 reporting guidelines. In support of this objective, the audit team conducted a high-level, qualitative
review of the CNCS information security program, specifically evaluating the agency's degree of
compliance with applicable criteria for a security program, and evaluating the effectiveness of automated
and manual security controls for the four mission-essential systems of CNCS. Systems examined were:

        Momentum
        E-Grants
        E-SPAN
        Corporation Network

The following describes systems and sites that were not included in the scope of this audit:

        This audit also did not include analysis of the Web-based Reporting System (WBRS). This
        system is a CNCS major application, but was not included by the OIG as a system to be reviewed.
        The OIG LAN was also excluded from the scope of this study.
        Additionally, this study did not include site surveys of Service Centers or contractor-operated
        facilities.

The scope of work was organized into three tasks:

        Background Review
        Audit Fieldwork
        Audit Reporting

Consistent with these tasks, the methodology involved data collection (e.g., primarily from interviews and
records), data analysis, security controls testing and determination of findings and recommendations.

Interviews entailed administration of structured question sets [e.g., derived from NIST, the Federal
Information Systems Controls Audit Manual (FISCAM) and OMB security criteria] to the following
CNCS staff:

        Deputy CIO (Representing the Agency Head, CIO and Program Officials)
        Selected OIG staff members
        Selected system users

The document review process included agency:

        Plans and policies
        Reports
        Network diagrams
        System certifications and accreditations

An internal penetration test was conducted to evaluate security aspects of the agency's servers, printer,
workstations and network infrastructure from inside the CNCS firewall. The test was performed from
inside the CNCS security perimeter in close coordination with the Deputy CIO and Network
                                                                                                      Appendix A
                       Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


Administrator. Network vulnerability scans were performed using the System Administrator's Integrated
Network T ~ o(SAINTTM).
               l

An external penetration test was conducted to evaluate security aspects of the agency's firewall. The test
was performed from outside the CNCS security perimeter (e.g., from the Internet). Network vulnerability
scans were performed using SAINTTM.

All analyses were performed in accordance with guidance from the following:

        GAO, Government Auditing Standards, 2003 Revision
        GAO, Federal Information System Controls Audit Manual, Volume I : Financial Statement
        Audits, January 1999
        National Institute of Standards and Technology Special Publication 800-26, SelfAssessment
        Guidefor Information Technology Systems, August 2001
        OMB reporting instructions
        Information Systems Audit & Control Association standards
        CNCS OIG Audit Guidance

The evaluation was conducted on site at CNCS headquarters, 1201 New York Avenue, NW., Washington,
DC' 20525, between July 21 and August 27, 2003. Evaluators were Karen Frey, Randy Laudermilk, Jane
Laroussi, Anthony Van Dyck and Diane Reilly from Richard S. Carson & Associates, Inc., 4720
Montgomery Lane, Suite 800, Bethesda, MD 20814.
                                                                                            Appendix B
             Corporation for National and Community Service (CNCS) FY 2003 Information Security Program



EXECUTIVE SUMMARY FOR MANAGEMENT AND BUDGET (OMB)
                         OFFICE OF INSPECTOR GENERAL
                        CORPORATION FOR NATIONAL AND
                             COMMUNITY SERVICE



                                   Executive Summary for
                         Office of Management and Budget (OMB)
                                        Pertaining to
                                 Office of Inspector General
                 Review of Corporation for National a n d Community Service
                     Implementation of the Federal Information Security
                                      Management Act
                                    For Fiscal Year 2003

                                    OIG Audit Number 03-26
                                        August 21,2003




                                           Prepared by:

                             Richard S. Carson & Associates, Inc.
                              4720 Montgomery Lane, Suite 800
                                 Bethesda, MD 20814-3444




This report was issued to Corporation management on September 18, 2003. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions on the
report's findings and recommendations not later than March 18, 2004, and complete its corrective
actions by September 18,2004. Consequently, the report findings do not necessarily represent the final
resolution of the issues presented.
Richard S. Carson & Associates, Inc. (Carson Associates), on behalf of the Office of Inspector
General (OIG) of the Corporation for National and Community Service (CNCS), completed an
independent audit of the Corporation's implementation of the Federal Information Security
Management Act (FISMA) for Fiscal Year (FY) 2003. The Independent Audit Report provides
specific findings and conclusions and, when applicable, identifies problem areas and makes
recommendations for resolution. This Executive Summary for the Office of Management and
Budget (OMB), reports the results of this CNCS independent audit.

On December 17, 2002, President George W. Bush signed into law the E-Government Act of
2002 (Pub. L. No. 107-347), which includes Title 111, the Federal Information Security
Management Act of 2002 (FISMA). The FISMA permanently reauthorized the framework laid
out in the Government Information Security Reform Act of 2000 (GISRA), which expired in
November 2002. The FISMA outlines the information security management requirements for
agencies, including the requirement for annual review and independent assessment by agency
inspectors general. In addition, FISMA includes new provisions aimed at further strengthening
the security of the Federal government's information and information systems, such as the
development of minimum standards for agency systems. The annual assessments provide
agancies with the information needed to determine the effectiveness of overall security programs,
and to develop strategies and best practices for improving information security.

The independent audit comprises four elements: evaluation of CNCS's information security
program, evaluation of CNCS progress towards correcting weaknesses addressed within the 2002
Plan of Action and Milestones (POA&Ms), review of the self-assessments and verification and
testing of information security controls for four representative information systems. The results
of the independent audit address the problems identified during the evaluation. The major
findings from the report are summarized in the Results in Brief.



The objectives of the independent audit of CNCS's information security program were to:

        Test the effectiveness of information security policies, procedures and practices of a
        representative subset of the agency's information systems;
        Assess compliance with FISMA and related information security policies, procedures,
        standards and guidelines; and
        Conduct follow-up assessment of agency progress in correcting weaknesses identified in
        prior GISRA/FISMA evaluations, including those weaknesses listed in the Fiscal Year
        2002 POA&M.



CNCS has taken a number of steps during the past year to enhance their security program and
address issues identified in the 2002 GISRA report. These enhancements are as follows:

        Hardware and software have been acquired and installed to provide continuity of
        operations for the e-Grants system.
      The Continuity of Operations Plan has been successfully tested for e-Grants, with full
      capability anticipated by the end of this fiscal year.

       Certification and Accreditations were completed for all major applications during this
       reporting period.

       Improvements have been made to the test planning and execution process. Efforts are
       ongoing to integrate these improvements into the formal Systems Development Lifecycle
       methodology.

       CNCS maintains a very effective security awareness program; all employees and
       contractors, requiring system access, undergo annual security awareness training.

       Configuration Management policies include extensive work in the tracking of hardware
       inventory and software licensing, as well as the use of automation tools to track system-
       level configurations for desktop deployment and configuration control.

Notwithstanding the improvements stated above, some areas showed little progress toward
remediation and/or did not adhere to OMB A-130 guidance. These areas were identified as
problems.

       The lack of system-level rules of behavior for the Electronic-System for Program
       Agreements and National Service Participants (E-SPAN), and e-Grants was identified as
       a weakness in last year's GISRA assessment, but have not been documented or addressed
       to date. There are a variety of policies and procedures for the agency that are used by
       these system users and many cover "rules" that affect the applicable systems; however,
       program officials have not defined system-specific rules as required by OMB A-130.

       The 2002 GISRA report stated that a summary of major system security plans was not
       included in the Corporation's Information Management Strategic Plan. This item is
       identified in the agency-wide POA&M but, to date, has not been included in the
       Information Management Strategic Plan. However, during an August 2003 interview
       with the Corporation's Deputy Chief Information Officer, (currently the position of Chief
       Information Officer is vacant), it was found that this weakness is now being addressed
       and should be resolved upon publication of the revised plan this year.

       The Corporation has a stated policy to perform complete Certification and Accreditation
       processes each year (versus every 3 years or whenever a major system change occurs) for
       all major systems, rather than performing annual tests and evaluations as defined in OMB
       A-130. However, there is no documented policy within CNCS stating annual System
       Test and Evaluation and risk assessment processes will be accomplished as a part of
       Certification and Accreditation.

       The Corporation's corrective action process needs to be improved to ensure that all
       Information Technology (IT) security weaknesses are identified on system-level
       POA&Ms and that the program officials and Inspector General track and support
       resolution of these actions in a pro-active, collaborative way. The Corporation's Deputy
       Chief Information Officer and Office of Inspector General maintain a variety of tracking
       systems and maintain their own processes. However, the POA&M process, as described
       by OMB A-130 and recent FISMA reporting Guidance (August 6, 2003), is not the
       Corporation's authoritative management tool for tracking IT security weaknesses.

       The Corporation identifies their major systems in a variety of methods, such as Exhibit
       300s, Security Plans and the Information Management Strategic Plan. However, there is
       no single source for maintaining the Corporation's inventory of major systems and their
       inter-connections with other systems. The resulting condition is a lack of reconciliation
       between documents and reporting methods concerning the official list of major systems
       within CNCS.



The Independent Audit Report includes 10 recommendations to strengthen the CNCS security
program.
A. OVERVIEW OF FISMA IT SECURITY REVIEWS




                                                                                           1                    I   FY03 Contractor
                                                                         FY03 Programs     I   FY03 Systems     loperations or Facilities
                                                                                I          I         I          I            I

 ureau Name
 NCS

                                                                    I           I          I         I          I            I

.gency Total                                                               3         3          5         3           2            2
. For operations and assets under their control, have agency
rogram officials and the agency CIO used appropriate methods
!.g., audits or inspections, agreed upon IT security requirements
)r contractor provided services or services provided by other
gencies) to ensure that contractor provided services or services
rovided by another agency for their program and systems are
dequately secure and meet the requirements of FISMA, OMB
olicy and NlST guidelines, national security policy, and agency
olicy?                                                                       Yes                                Yes
                                                                    CNCS used several methods. CNCS has recently reviewed the
                                                                    Statement on Auditing Standards (SAS) 70 report on the Department
                                                                    of Interior's National Business Center in Reston, VA. CNCS also
                                                                    maintains SAS 70 reports on the Department of Health and Human
                                                                    Services and the National Finance Center systems to address
                                                                    interconnections between their respective systems. Additionally, a
                                                                    technical training and assistance agreement exists between the
                                                                    CNCS Grants office and the Aguirre Hosting Corporation for the Web
                                                                    based Reporting System (WBRS), as well as contracts with various
                                                                    contractors to ensure compliance with security requirements. The
                                                                    effect on CNCS of having these mechanisms in place is a
                                                                    documented set of policies, requirements, roles and responsibilities
                                                                    between the Corporation and critical "partners" to further enhance the
                                                                    security and sustainment of critical operations and resources.

                                                                        CNCS also used the self-assessment guide as outlined in NlST SP
                                                                        800-26, Security Self-AssessmentGuide for lnformation Technology
                                                                        Systems, in 2002 and 2003 during the development of Security
                                                                        Plans.

                                                                        During 2003, CNCS followed OMB A-130 guidelines, by using NIST's
                                                                        Security Self-AssessmentGuide for Information Technology Systems
                                                                        (SF 800-26) in their security plan review of the Momentum System,
                                                                        maintained by the National Business Center. Additionally, CNCS
                                                                        NIST's Risk Management Guide for lnformation Technology Systems
                                                                        (SP 800-30) in the performance of a risk assessment for Momentum,
:. If yes, what methods are used? If no, please explain why.            during the re-certification and accreditation of Momentum.
I. Did the agency use the NET self-assessment guide to
:onduct its reviews?
r. If the agency did not use the NlST self-assessment guide and
nstead used an agency-developed methodology, please confirm
hat all elements of the NlST guide were addressed in the agency
nethodoloav.
                                                                    lThe Corporation describes its systems within its Information
                                                                     ~ a n a ~ e m eStrategic
                                                                                    nt        Plan to document all systems, to include
                                                                     major applications, general support systems, and "other" systems not
                                                                     deemed vital to CNCS operations. CNCS also maintains Exhibit
                                                                     300s and C&As for systems deemed major applications to the critical
                                                                     operations of CNCS. The Deputy Chief Information Officer has
f. Provide a brief update o n the agency's work to develop an        deemed this method of "inventory" appropriate since the number of
             major IT systems.                                       major applications is small.                                              -
CNCS programs include Senior Corps, AmeriCorps and Learn and Serve America. CNCS currently uses,
operates or owns three major applications and one general support system. The Office of Inspector
General operates its own general support system. The systems list follows.

Major Applications:
       Momentum [operated by the Department of Interior's National Business Center].
       Electronic-System for Program Agreements and National Service Participants which also
       includes the e-Grants module.
        Web-based Reporting System, (WBRS), maintained by the Aguirre Hosting Corporation.

General Support Systems:
       CNCS Network.
       CNCS OIG Local Area Network.




                                                                            FY03 Material Weaknesses
                                                                      Total Number                                                 POA&Ms
                                                            Total     Repeated from         Identify and Describe Each Material   developed?
Bureau Name                                                Number         FY02                           Weakness                    Y/N




Agency Total                                                  0             0

No material weaknesses were identified for CNCS during the course of this assessment.




I
Agency program officials develop, implement, and manage POA&Ms for every system
that they own and operate (systems that support their programs) that has an IT
security weakness.
                                                                                        I                           I      NO   (see note)         I
Agency program officials report to the CIO on a regular basis (at least quarterly) on           Yes (see note)
their remediation progress.
Agency CIO develops, implements, and manages POA&Ms for every system that they                  Yes (see note)
own and operate (systems that support their programs) that has an IT security
weakness.
The agency CIO centrally tracks and maintains all POA&M activities on at least a                Yes (see note)
quarterly basis.
The POA&M is the authoritative agency and IG management tool to identify and                                               No (see note)
monitor agency actions for correcting information and IT security weaknesses.

                                                                                                                                    5
 System-level pOA&Ms are tied directly to the system budget request through the IT                     No (see note)
 business case as required in OMB budget guidance (Circular A-1 1) to tie the
justifcation for IT security funds to the budget process.
 Agency IGs aie an integral part of the POA&M process and have access to agency       Yes (see note)
 POA&Ms.
 The agency's POA&M process represents a prioritization of agency IT security                          No (see note)
 weaknesses that ensures that significant IT security weaknesses are addressed in a
 timely manneq and receive, where necessary, appropriate resources.


There is a single agency POA&M that is managed by the Deputy Chief Information Officer, acting as the
Program Official for all systems. There are other mechanisms throughout CNCS that track various types
of action items related to agency systems.

The Deputy Chief Information Officer acts as the Program Official for all CNCS systems. He is an
integral part of all phases of the lifecycle process, including remediation of POA&M items.

A single POA&M is developed and managed by the Deputy Chief Information Officer that includes an
aggregate of IT security weaknesses for all major applications.

The Deputy Chief Information Officer maintains the agency-wide POA&M and reports the status on a
quarterly basis. Other tracking mechanisms are currently in place to track action items.

Currently, there is a single agency-wide POA&M. There are no "system-level" POA&Ms identified by
the Corporation's Exhibit 300 identification to tie to business cases.

 The agency Office of Inspector General is involved in the POA&M process in two critical areas. First, it
 reviews POA&M items during financial audits to ensure compliance with financial regulations. Second,
 it provides an oversight role to ensure that FISMA independent assessments are conducted on a yearly
 basis. Additionally, the Office of Inspector General is involved during system design and re-design
 phases to offer input into "auditable issues" to the functional and technical members of the design team.

 The agency-wide POA&M contains a list of significant IT security weaknesses and represents a
 prioritization of those items. However, there are no system-level POA&Ms maintained at this time to
 ensure tracking of system-specific IT security weaknesses.


 B. RESPONSIBILITIES OF AGENCY HEAD

 For the purposes of this report, the CNCS agency head is the Chief Financial Officer.
a. Has the agency fully identified its national critical operations and assets?            Yes   */   No
b. Has the agency fully identified the interdependencies and interrelationships of those         J
nationally critical operations and assets?                                                 Yes        No
c. Has the agency fully identified its mission critical operations and assets?             Yes        No
d. Has the agency fully identified the interdependencies and interrelationships of those         4
mission critical operations and assets?
.                                                                                          Yes        No
                                                                                                The agency maintains the detailed
                                                                                                description of agency systems, their
                                                                                                support to critical operations and
                                                                                                interdependencies in the IM Strategic
                                                                                                Plan. This plan is being updated during
                                                                                                2003 to describe the methodology for
                                                                                                identifying major applications and for
                                                                                                enhancing the description of
                                                                                                 interdependencies and
e. If yes, despribe the steps the agency has taken as a result of the review.                  linterrelationships.
f. If no. olease exolain whv.                                                                     N/A




                                                                                Guidelines to provide OIT and end users with the
                                                                                procedures for reporting incidents. This document was
                                                                                updated in July 2002. All users will notify the Deputy
                                                                                CIO and/or the ISSO immediately when an incident
                                                                                occurs. The Deputy CIO or Information Systems
                                                                                Security Officer then determines the next course of
                                                                                action, whether that includes notifying law enforcement
                                                                                and/or FedCIRC. The Deputy CIO and ISSO are directly
                                                                                involved in the process to ensure all procedures are
                                                                                followed according to CNCS and FedCIRC policy.
                                                                                Physical security incidents are reported to CNCS
 . Identify and describe the procedures for external reporting to law           Administrative Services, which in turn, notifies the
 !nforcement authorities and'to the Federal Computer lncideit Response          Washington D.C. Police Department (WPD) or Federal
 :enter (FedCIRC).                                                              Protective Service as required.
 I. Total number of agency components or bureaus.                                                           1
 :.Number of agency components with incident handling and response              1 - All agency incident handling and response capability
 :apability.                                                                    is supported through CNCS OIT.
 I. Number of agency components that report to FedCIRC.                                                     1
 !. Does the agency and its major components share incident information
 vith FedClRC in a timely manner consistent with FedClRC and OMB                I
 . What is the required average time to report to the agency and FedClRC
 ollowing an incident?                                                                                      3 Hours
                                                                                CNCS OIT develops and implements all patch policies
                                                                                within the agency. Internal intrusion detection software
                                                                                is run to detect patch level. When a patch is required, il
                                                                                is first installed on a test platform and verified. The
                                                                                patch is then applied to the production platform and
                                                                                verified. The intrusion detection scan is run again to
 1. How does the agency, including the programs within major components,        validate the patch and ensure no other patches are
 :onfirm that patches have been tested and installed In a timely manner?        required.
 r. Is the agency a member of the Patch Authentication and Distribution
 :apability operated by FedCIRC?
 . If yes, how many active users does the agency have for this service?
                                                                                Yes
                                                                                3
                                                                                              I                            I
 .Has the agency developed and complied with specific configuration                                     J
 equirements that meet their own needs?                                         Yes                             No
 L. Do these aonfiguration requirements address patching of security                                    4
 rulnerabilitieg?                                                               Yes                             No
                                                                 Number of incidents reported        Number of incidents reported
Bureau Name             Number of incidents reported             externally to FedClRC               externally to law enforcement



There have been no successful incidents during this fiscal year. This result is as of August 27,2003.


C. RESPQ)NSIBILITIESOF AGENCY PROGRAM OFFICIALS AND AGENCY CHIEF
   INFORMATION OFFICERS

For the purposes of this report, the CNCS program official is the Deputy Chief Information Officer.




                                           Number of                  Number of         Number of
                        Number of          systems                    systems with      systems for                        Number of
                        systems            that have                  security control which security                      systems for
                        assessed for       an up-to-    Number of costs                 controls have        Number of     which
                        risk and           date IT      systems       integrated into been tested            systems with contingency
                        assigned a level   security     certified and the life cycle of and evaluated        a contingency plans have
              Total     or risk            plan         accredited the system           in the last year     plan          been tested
              Number
Bureau        of          No. of  % of              %      NO.      %      No.      YO        NO.     %          NO.    %       NO.      %
Name          systems    Systems Systems

CNCS          3          3        100%     3      100% 3          100% 3          100%    3         100%     3         100% 3         100%




Agency
Total         3          3        100%     3      100%3           100%3           100%    3         100%     3         100% 3         100%


During 2002-2003, a complete Certification and Accreditation process was executed for the e-Grants
module of E-SPAN, resulting in a total of four for each of the categories defined above. However, now
that e-Grants is classified as a module of the E-SPAN major system, the numbers provided above include
e-Grants as part of E-SPAN.




                                                                                  Has the agency CIO         Do agency POA&Ms
Has the agency CIO                                 How does the agency CIO        appointed a senior         account for all known
maintained an agency-    Did the CIO evaluate the  ensure that bureaus            agency information         agency security
wide IT security         performance of all agency comply with the agency-        security officer per the   weaknesses including all
program? Y/N             bureauslcomponents? Y/N wide IT security program?        requirements in FISMA?     components?
                                                   The Deputy CIO acts on                                    No. Currently there are a
                                                   behalf of the CIO (position                               number of tracking
                                                   currently vacant) and                                     mechanisms used by
         Yes                        Yes            fulfills the role of program               Yes            CNCS, based on the type
I                             I                         lofficial for all major and
                                                         general support systems.
                                                                                    I                               lof issue and area of
                                                                                                                     responsibility in
                                                         There are no separate                                       responding to them. It
                                                         bureaus within CNCS.                                        has been recommended
                                                         Programs support specific                                   by the FlSMA assessmen
                                                         CNCS business areas. Al                                     team that CNCS evaluate
                                                         security-related issues                                     the current process and
                                                         from program functional                                     tracking mechanisms to
                                                         area leaders are                                            develop a process that
                                                         coordinated through the                                     ensures that agency-wide
                                                         Deputy CIO, OIT and the                                     and system-level
                                                         Information System                                          POA&Ms account for all
                                                         Security Office.                                            known security
                                                                                                                     weaknesses.




                                                            Agency employees with
    Total                             ~    ~numbert of~   l significant security
    number of   Agency employees that agency employeesresponsibilities that                                                             Total costs
    agency      received IT security  with significant IT   received specialized                                                        for providing
    employees   training in FY03      security              training                                                                    training in
    in FY03     Number Percentage responsibilities                         Percentage Briefly describe training provided                FY03
    -                                                       Number
                                                                                      In additional to the annual security
                                                                                      awareness training, these individuals
                                                                                      receive training through FedSec and
                                                                                      on-line training sites (such as the VPN
                                                                                      security class through on-line
                                                                                      webcase), as well as utilizing various
                                                                                      security organization websites, trade
                                                                                      shows and publications to remain
    606         659         109%                 7                 7           100%   aware of current security issues.                     $27K


    All employees and contractors that require access to systems or sensitive data must undergo IT security
    awareness training before obtaining accounts and access to the applicable data. The number of agency
    employees, as of July 30, 2003, is 606. The number of employees that received training during FY 2003
    includes current employees and those who received training during this fiscal year, but left the
    Corporation prior to July 30, 2003. The next formal "annual" training is scheduled for December 2003
    (FY 2004).




                                          Did the agency program official        Did the agency CIO plan and
                     Number of business   plan and budget for IT security and    budget for IT security and             Are IT security costs reported
    Bureau           cases submitted to   integrate security into all of their   integrate security into all of their   in the agency's exhibit 53 for
    Name             OMB in FY05          business cases? Y/N                    business cases? YIN                    each IT investment? Y/N
    ~CNCS        I                3                       Yes                                    Yes                                 Yes

    CNCS has not completed business cases for FY 2005; therefore, values for the questions in C.4. above
    were not available at the time of this report. The current plan is to develop three business cases based on
    the Momentum, WBRS and E-SPAN major applications. A fourth business case may be included for the
    infrastructure, based on a resolution of current OMB guidance on steady-state systems and architectures
    previously not considered major applications.
As of the date of this report, specific requirements were not defined within the FY 2005 business cases.
Historically, CNCS program officials plan and budget IT security requirements as they apply to each
business case. However, reporting may be "rolled" into a specific business case due to the consolidated
infrastructure that affects the security implementation across one or multiple systems. The method for
defining security requirements is dependent upon defined security requirement(s) andlor planned
execution of the budget to support them. At this time, there is no specific material to state factually that
individual FY 2005 business cases will not contain security information. Thus, the current plan is to state
them by business case.
                                                                                             Appendix C
              Corporation for National and Community Service (CNCS) FY 2003 Information Security Program


AGENCY RESPONSE TO OIG FY 2003 FlSMA REPORT
                                 Cornoralion for       II




September 10,2003

The Honorable Russell George,
Inspector General
Corporation for National and Community Sexvice
Dear Mt. George:

        The Corporation has reviewed the draft report Review of the Corporationfor
Naiional and Community Service Implementation of the Federal Information Security
Managametzt Act (OIG Audit Report 03-26, dated August 21,2003). The purpose of
Richard S. Carson & Associates' (Carson & Associates) work was to review the
Corporation's information systems security program and assess the effectiveness of the
program. The procedures performed by Carson & Associates included sophisticated
attemptg to penetrate the Corporation's systems as both an "outside" hacker and an
"insider." We note with satisfaction that Carson & Associates found two minor security
vulnerabilities that were only discovered once they were given access to the network and
that they were unsuccessful in their extemal attempts to penetrate the Corporation's
systems.

       The Corporation is also pleased that, Carson & Associates concluded that the
Corporation's systems security program is effective and efficient. The Corporation has
taken the security of its computer resources very seriously and will continue to do so. To
this end, the Corporation routinely tests and monitors its systems and contracts with
independent EDP consultants to review and test its systems. We also rely on the testing
and review that was performed by Carson & Associates on behalf of the Office of the
Inspector General and discussed in this report.

         The report cites a single theme which Carson & Associates feels that the
 Corporation should focus upon - documentation. There are five specific
 recommendations for improved documentation. The first of these recommendations is
 for the development of a set of system-level rules of behavior for eSPAN. While we
 believe that the rules of behavior for &PAN are set and followed through a series of
 processes, including the configuration of the system, the Corporation will develop a
 formal document to address this recommendation.

         In the second recommendation, Carson & Associates reiterated an earlier finding
 that has been reported on our quarterly Plans of Action and Milestone (POALkM) reports
 to OMB;but has yet to be completed. This recommendation is to include in the
 Corporation's Strategic Plan a summary of its major systems security plans. The
 Corporation's Strategic Plan is currently being revised and will include these summaries.

        The final three recommendations center on the process involved in performing
 reviews of the Corporation's security program. These recommendations call for the
 development of three documents that would assist in defining the Corporation's approach

                         1201 New York Avenue, NW * Washington, DC 20525
                                                   *
                               202-606-5000 www.nationalservict org
                         Senior Corps + AmeriCorps * Learn end Serve America
to security reviews. The Corporation agrees with these recommendations and will
develop documents that will define our yearly accreditation process; specifically
document how the Corporation classifies systems and what its major systems are; and
develop an overall POA&M process which will provide single point for tracking fbture
IT audit recommendations.




       Finally, the Corporation would like to express its appreciation for the work of
Carson & Associates staff and their flexibility to work around the other pressing




                                             grv
responsibilities of the Corporation staff.




                                             Michelle Gui ermin
                                             chief ~inat)e/~al
                                                            Officer
